Ti

@OCKLE

Le ga 1 Briefs E-Mail Address:

ntact@cocklelegalbriefs.com
Est. 1923 contact@ eg

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 19-514

NIKKO A. JENKINS,
Petitioner,
Vv.
STATE OF NEBRASKA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3025 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 10th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ina Mite, 4. GAL
State of Nebraska . ,
My Commission Expires Nov 24, 2020 *

Notary Public Affiant

 

 

38920
